               The Statistical Sampling Method Used in the
               Earned Income Tax Credit Proof of Concept
                            Test Appears Valid

                                      May 2004

                       Reference Number: 2004-40-100




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                      May 12, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


       FROM:                        Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - The Statistical Sampling Method Used in the
                                    Earned Income Tax Credit Proof of Concept Test Appears Valid
                                    (Audit # 200440016)


       This report presents the results of our review of the Earned Income Tax Credit (EITC)
       Proof of Concept Test (the Test). The overall objective of this review was to determine
       the usefulness of the Test in enabling the Internal Revenue Service (IRS) to make
       decisions regarding the future of its EITC Program. The EITC is a refundable credit
       available to taxpayers that file returns with certain earned income. While the EITC has
       provided significant benefits to taxpayers, it has also resulted in a significant loss of
       revenue to the Federal Government. An IRS compliance study of Tax Year (TY) 1999
       returns estimated that between $8.5 and $9.9 billion (27 to 32 percent) of the $31 billion
       in EITC claimed for TY 1999 should not have been paid.1
       This audit focused on the statistical sampling methodologies used to select the various
       samples for the Test. However, we did not assess the selection criteria used for each
       sample. In addition, because the IRS had an independent third party validate the
       design of the Certification of Qualifying Child Residency Requirements (Certification)
       portion of the Test, our review of the Certification sample was limited to asking the
       Treasury Inspector General for Tax Administration’s contracted statistician to review
       and provide an overall assessment of the third party report.2
       Overall, the statistical sampling method used to select the samples for the Test appears
       adequate and should provide reliable information on which to base future decisions.
       The Test consists of three portions—Certification, Verification of Filing Status (Filing

       1
        IRS report, Compliance Estimates for Earned Income Tax Credit on 1999 Returns, dated February 28, 2002.
       2
        Mathematica Policy Research, Inc. report, A Review of the Earned Income Tax Credit Residency Certification Pilot
       Study, dated November 28, 2003.
                                            2

Status), and Verification of Income (Income). The IRS selected statistical samples for
both the Certification and Filing Status portions of the Test. The IRS actually selected
larger samples than necessary, so the Test results should be very precise. The IRS did
not use a statistical sample for the Income portion of the Test. It developed a new case
selection methodology and selected the Income inventory based on a set of information
filters and available resources. The new case selection methodology supports the
intent of the Income portion of the Test and should also provide reliable results.
We do, however, have some concerns with the sizes of the subsamples in the
Certification portion of the Test and the impact IRS contact with taxpayers included in
this portion could have on the Test results. While these concerns do not affect the
reliability of the samples, they could affect the interpretation of the Test results. We
suggested the IRS use caution when interpreting and relying upon these results.
Management’s Response: IRS management is pleased that the Test should enable
them to make well-informed decisions regarding the future of the EITC Program. The
IRS recognizes the limitation of the small sample sizes for the subsamples related to the
Certification portion of the Test but believes the subsamples will provide meaningful
insights that can be used to develop more quantifiable tests. In addition, management
believes the design of the Certification portion of the Test includes procedures to
address our concerns about the impact IRS contact with taxpayers included in this
portion could have on the Test results. Management’s complete response to the draft
report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
results. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
                          The Statistical Sampling Method Used in the
                 Earned Income Tax Credit Proof of Concept Test Appears Valid




                                             Table of Contents


Background ............................................................................................... Page 1
The Samples Used in the Test Should
Generally Provide Reliable Results ........................................................... Page 3
Data Collected During the Test Should Provide the
Information Needed to Evaluate the Test Results ..................................... Page 9
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 11
Appendix II – Major Contributors to This Report........................................ Page 13
Appendix III – Report Distribution List ....................................................... Page 14
Appendix IV – Prior Treasury Inspector General for Tax
Administration and General Accounting Office Reviews of
the Earned Income Tax Credit Proof of Concept Test ............................... Page 15
Appendix V – Income Verification Program Earned
Income Tax Credit Inventory Categories ................................................... Page 16
Appendix VI – Management’s Response to the Draft Report .................... Page 17
                      The Statistical Sampling Method Used in the
             Earned Income Tax Credit Proof of Concept Test Appears Valid

                                 The Earned Income Tax Credit (EITC) is a refundable credit
Background
                                 available to taxpayers that file returns with certain earned
                                 income. While the EITC has provided significant benefits
                                 to taxpayers, it has also resulted in a significant loss of
                                 revenue to the Federal Government. An Internal Revenue
                                 Service (IRS) compliance study of Tax Year (TY) 1999
                                 returns estimated between $8.5 and $9.9 billion (27 to
                                 32 percent) of the $31 billion in EITC claimed for TY 1999
                                 should not have been paid.1
                                 On February 28, 2002, the Department of the Treasury and
                                 the IRS announced that a Task Force would examine the
                                 administration and complexity of the EITC. The Treasury
                                 Assistant Secretary for Tax Policy and the IRS
                                 Commissioner headed the Task Force. The Task Force used
                                 the TY 1999 compliance study as the basis for its
                                 recommendations. The IRS used these recommendations to
                                 develop a future vision for administering the EITC. This
                                 vision is outlined in the IRS’ EITC Concept of Operations
                                 (CONOPS).
                                 The first step the IRS is taking to implement its future
                                 vision is to test the basic concepts outlined in the CONOPs.
                                 This test is referred to as a Proof of Concept Test (the Test)
                                 and is intended to provide the IRS with information
                                 necessary to determine if these basic concepts are feasible
                                 for improving compliance with the EITC without harming
                                 participation in the EITC Program.
                                 The Test consists of three portions designed to test concepts
                                 for improving EITC compliance:
                                 •   Certification of Qualifying Child Residency
                                     Requirements (Certification) – The IRS will ask a
                                     sample of EITC claimants to verify, when they file their
                                     TY 2003 returns, that the qualifying child claimed for
                                     EITC purposes resided with them in the United States
                                     for more than one-half of the tax year, as required by
                                     law. These taxpayers are being treated differently from
                                     other taxpayers that claim the EITC, and the IRS is
                                     trying to capture the impact this treatment has on
                                     improving compliance with the EITC.

                                 1
                                  IRS report, Compliance Estimates for Earned Income Tax Credit on
                                 1999 Returns, dated February 28, 2002.
                                                                                             Page 1
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    •   Verification of Filing Status (Filing Status) – The IRS
                        will review the TY 2003 returns for a sample of EITC
                        claimants filing as “Head of Household” or “Single” to
                        verify whether the filing status they claimed is accurate.
                        The IRS hopes to find a better way to identify filing
                        status errors by evaluating the usefulness of adding
                        additional information to the Schedule Earned Income
                        Credit. The IRS will also assess the value of comparing
                        the information to other available sources in the
                        verification process.
                    •   Verification of Income (Income) – The IRS will review
                        the TY 2002 returns for taxpayers that claimed the EITC
                        but failed in the past to report all their income. These
                        taxpayers may not be eligible because their income,
                        when corrected, is too high to qualify for the credit. The
                        IRS is testing whether cases selected for its income
                        verification program based on the potential change in
                        the EITC are as productive as its regular inventory.
                    This audit focused on the statistical sampling methodologies
                    used to select the various samples for the Test. However,
                    we did not assess the sample selection criteria used for each
                    sample. In addition, because the IRS had an independent
                    third party validate the design of the Certification portion of
                    the Test with a focus on the sample selection, our review of
                    the Certification sample was limited to asking the Treasury
                    Inspector General for Tax Administration’s contracted
                    statistician to review the third party report2 and provide an
                    overall assessment of the results.
                    This audit is the third in a series of audits we are conducting
                    on the Test. We have completed one review and the second
                    is in process. Information on our previous audit report,
                    along with the results of a review of the Test by the General
                    Accounting Office, can be found in Appendix IV.
                    This review was performed in the Office of Research,
                    Analysis, and Statistics in the National Headquarters in
                    Washington, D.C., and in the Wage and Investment
                    Division Office of Compliance and EITC Office in

                    2
                     Mathematica Policy Research, Inc. report, A Review of the Earned
                    Income Tax Credit Residency Certification Pilot Study, dated
                    November 28, 2003.
                                                                                  Page 2
                         The Statistical Sampling Method Used in the
                Earned Income Tax Credit Proof of Concept Test Appears Valid

                                    Atlanta, Georgia, during the period November 2003 through
                                    February 2004. The audit was conducted in accordance
                                    with Government Auditing Standards. Detailed information
                                    on our audit objective, scope, and methodology is presented
                                    in Appendix I. Major contributors to the report are listed in
                                    Appendix II.
                                    The samples the IRS selected for the Certification and Filing
The Samples Used in the Test
                                    Status portions of the Test are statistically valid and should
Should Generally Provide
                                    provide reliable results. The IRS actually selected larger
Reliable Results
                                    samples than necessary, so the Test results should be very
                                    precise. The Income portion of the Test did not use a
                                    statistical sample. Rather, the IRS is testing a new method
                                    for selecting EITC inventory for income verification. This
                                    new case selection methodology supports the intent of the
                                    Income portion of the Test and should also provide reliable
                                    results.
                                    The sampling method used for the Certification portion
                                    of the Test is statistically valid and should provide
                                    reliable results
                                    Overall, the method used to select the various samples for
                                    the Certification portion of the Test is statistically valid.
                                    The method should also result in reliable results that the IRS
                                    can use to make future EITC Program decisions.
                                    In the Certification portion of the Test, the IRS is asking
                                    certain taxpayers to validate the residency requirements for
                                    their qualifying children.3 The IRS started with a
                                    representative sample of approximately 1.6 million
                                    taxpayers that claimed the EITC with qualifying child(ren)
                                    and filed timely tax returns for TY 2002. The IRS
                                    systemically certified as many taxpayers as possible using
                                    available computer databases. It also applied various
                                    exclusions (e.g., those already selected for examination) to

                                    3
                                      A qualifying child must be the taxpayer’s son, daughter, adopted child,
                                    stepchild, grandchild, or eligible foster child. The taxpayer’s brother,
                                    sister, stepbrother, or stepsister (or their child) may also be a qualifying
                                    child if the taxpayer cares for this individual as he or she would his or
                                    her own child. The child must be under age 19 or a full-time student
                                    under age 24 at the end of the tax year or permanently and totally
                                    disabled at any time during the tax year, regardless of age. The child
                                    must have lived with the taxpayer in the United States for more than
                                    one-half of the tax year.
                                                                                                        Page 3
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    ensure the IRS would contact the taxpayers only once on the
                    same return. It then selected a statistical sample of
                    25,000 taxpayers from approximately 402,000 taxpayers
                    that could not be systemically certified. The IRS used a
                    systematic sampling method to select the sample.
                    These 25,000 taxpayers are being asked to provide
                    affidavits, letters, or documents from a landlord or property
                    manager, police officer, teacher, or other official in the
                    taxpayer’s community that verify the residency requirement
                    of the qualifying child claimed. The IRS subsequently
                    selected 2 subsamples out of the 25,000 to test alternative
                    documentation requirements. One subsample of
                    1,000 taxpayers will be able to ask friends and relatives to
                    sign an affidavit attesting to a qualifying child’s residence.
                    A second subsample of 1,000 taxpayers will receive forms
                    printed in both English and Spanish to gauge whether
                    participation in the Test increases due to the distribution of
                    materials in both languages.
                    The IRS contracted with an independent third party to
                    validate the design of the Certification portion of the Test.
                    To evaluate alternative forms, the third party assessed the
                    sample design by reviewing how the IRS identified the
                    population eligible for certification, the designation of a
                    control group, the sample selection, and the subsamples.
                    The third party assessment also reviewed the Certification
                    process by looking at IRS contact with the participants and
                    verification of residency. The third party looked at the IRS’
                    plans to evaluate the results of the Test by assessing the
                    strengths and limitations of the overall Certification design,
                    reviewing how the IRS can estimate the net effect of
                    Certification, and discussing how the IRS can further
                    develop the analysis plan.
                    The third party endorsed the method the IRS used to
                    identify the taxpayers eligible for the Certification portion
                    of the Test. It determined that a valid approach was used to
                    select the sample and the control group and that the sample
                    size is more than sufficient to address the objectives of the
                    Certification test. The third party also determined that a
                    subsample of 1,000 taxpayers is sufficient to test the effects
                    of the alternative affidavit. However, the third party
                    indicated the second subsample of 1,000 taxpayers is not

                                                                            Page 4
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    sufficient to reliably detect whether participation in the Test
                    increases among those families that can read Spanish but not
                    English.
                    We reviewed the third party’s assessment and generally
                    agree with it. We are, however, concerned that the sizes of
                    the subsamples within the Certification portion of the Test
                    are not large enough to provide substantial and significant
                    results. This issue was also raised in the IRS’ third party
                    assessment but only in reference to the Spanish notice
                    subsample. The IRS acknowledged that the Spanish notice
                    subsample would probably not provide reliable results. At
                    best, it will provide anecdotal information. While neither
                    the third party’s nor our concerns affect the statistical
                    validity of the subsamples, they do affect how the
                    information gained from these subsamples should be used.
                    As a result, we suggest the IRS use the results of these two
                    subsamples with caution.
                    We also have a concern about how IRS contact with the
                    taxpayers in the Certification portion of the Test could affect
                    the test results. The IRS sent notices in December 2003
                    informing the 25,000 taxpayers in the sample that they were
                    part of this Test.4 We are concerned that some of these
                    taxpayers may have moved and would not have received the
                    materials that explain how the certification process can be
                    accomplished successfully. Also, some tax return preparers
                    may be unaware of the Test and the importance of
                    certification for this small group of taxpayers. While the
                    effect of the IRS contact does not affect the reliability of the
                    sample, it could affect the interpretation of the Test results.
                    Again, we suggest the IRS use caution when interpreting
                    and relying upon these results.




                    4
                     The IRS selected a sample of 25,000 taxpayers. However,
                    approximately 313 of these taxpayers later experienced conditions that
                    would include them in the exclusion categories the IRS used when
                    selecting its sample. Therefore, only 24,687 letters were actually
                    mailed. Since the IRS over sampled, this does not affect the reliability
                    of this sample.
                                                                                      Page 5
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    The sampling method used for the Filing Status portion
                    of the Test is statistically valid and should provide
                    reliable results
                    The samples selected for the Filing Status portion of the
                    Test are statistically valid. In addition, the samples should
                    provide reliable results for the IRS to use to make future
                    EITC Program decisions.
                    In the Filing Status portion of the Test, the IRS plans to
                    verify the filing status of two different samples of taxpayers.
                    The IRS used the same representative sample of
                    approximately 1.6 million taxpayers to determine the Filing
                    Status sampling population. The Certification sampling
                    population was removed from the 1.6 million before the
                    Filing Status samples were selected. The taxpayers
                    identified for the Income portion of the Test were also
                    removed so taxpayers would be affected by only one portion
                    of the Test. The IRS used the same systematic sampling
                    approach as that used in the Certification portion of the Test
                    to select both of the Filing Status samples. We reviewed the
                    sampling methodology and determined the samples are
                    appropriate to address the purpose of the Test.
                    The IRS selected a statistical sample of 36,000 taxpayers
                    from approximately 69,000 taxpayers whose filing status
                    history indicated they had been previously married and then
                    filed as “Single” or “Head of Household” on their TY 2002
                    tax returns. A second statistical sample of 5,000 taxpayers
                    was selected from approximately 600,000 taxpayers that
                    have filed “Head of Household” for the last 4 years but for
                    whom there is not enough information available in the IRS’
                    databases to determine the taxpayers’ marital status.
                    The taxpayers in both samples will be asked to validate that
                    they have chosen the correct filing status, which could affect
                    their eligibility for the credit.5 They will be asked to
                    provide divorce decrees, legal separation documents, or
                    other evidence to substantiate their filing status through an
                    inquiry or the examination process.



                    5
                     Taxpayers that file “Married Filing Separately” are not eligible for the
                    EITC.
                                                                                      Page 6
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    The inventory selection model used for the Income
                    portion of the Test supports the intent of the Test and
                    should provide reliable results
                    The new case selection model, used to select income
                    verification program EITC inventory, supports the purpose
                    of the Income portion of the Test. In this portion of the
                    Test, the IRS is using a new EITC inventory selection
                    model to select TY 2002 returns for verification. Generally,
                    the taxpayers selected for review have claimed the EITC but
                    failed in the past to report all their income. The new
                    selection model was designed to isolate EITC returns and
                    allow inventory selection based on the potential EITC
                    change.
                    The IRS has always worked the EITC as part of its income
                    verification program, but it has not selected returns based
                    specifically on the potential EITC change. In the past, the
                    EITC was worked as a secondary issue. The IRS will
                    determine if the new EITC selection model is more
                    productive than the general selection model.
                    The IRS identified 1.2 million TY 2002 returns on which
                    the taxpayers claimed the EITC and had underreported
                    income. Using the taxpayers’ history in its income
                    verification program, the IRS created new EITC inventory
                    categories. Factors such as whether a taxpayer’s return was
                    identified or worked in the past, whether additional tax was
                    assessed, and whether the return fell out in the same income
                    category were used to determine in which EITC inventory
                    category the return belonged. The cases were then filtered
                    by:
                    •   The location in which the case would be worked.
                    •   EITC Inventory Category. (An explanation of the EITC
                        inventory categories can be found in Appendix V.)
                    •   Filing Status.
                    •   The number of EITC-qualifying children claimed.
                    •   Position on the EITC bell curve.
                    As illustrated in Chart 1, the EITC bell curve has
                    five phases that cover the EITC tables. As a taxpayer’s
                    earned income amount increases, the EITC amount
                                                                          Page 7
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    increases to the point at which the maximum EITC is
                    reached. Then as the earned income amount continues to
                    increase, the EITC amount begins to decrease, which creates
                    the EITC bell curve.
                                                         Chart 1: The EITC Bell Curve

                                                               The EITC for Two Children
                                            $4,500
                                            $4,000                                    $4,140

                                            $3,500




                            Credit Amount
                                            $3,000
                                            $2,500
                                            $2,000                      $2,090                     $2,086
                                            $1,500
                                            $1,000
                                             $500
                                               $0        $10                                                 $0
                                                     1              2             3            4             5
                                                                                 Phase


                        Source: IRS Inventory Selection Model.

                    The filters allow the IRS to analyze and focus on specific
                    sections of the income verification program EITC
                    population. Once the cases were filtered, the potential EITC
                    changes were calculated and used to select the most
                    productive cases. The IRS used a cut-off amount applicable
                    to the potential EITC change amount as a guide in selecting
                    most of the cases. This should also ensure a broad
                    cross-section of cases is selected to develop a
                    comprehensive income verification program EITC taxpayer
                    profile.
                    Using the process described above, the IRS selected
                    245,717 returns using the new EITC case selection method.
                    An additional 54,283 returns were selected using the general
                    selection model.6 The volume of returns was selected based
                    on resources available to work cases at each of the three



                    6
                     Due to an error in the EITC during original returns processing, the new
                    EITC selection model could not calculate the potential EITC change on
                    some returns. Therefore, the normal inventory selection model was
                    used.
                                                                                                            Page 8
                        The Statistical Sampling Method Used in the
               Earned Income Tax Credit Proof of Concept Test Appears Valid

                                   locations where the IRS’ income verification program is
                                   worked and the amount of potential EITC change.
                                   In addition to using sound sampling methodologies for the
                                   Test, the IRS took additional steps to validate that the
                                   Certification and Filing Status samples were similar to their
                                   sampling populations. The IRS validated the percentage of
                                   male/female taxpayers, the filing status claimed, and the
                                   state in which the taxpayer filed the return. The IRS stated
                                   it validated that the data pulled from source files contained
                                   valid values for filing status; however, it was unable to
                                   provide documentation to support this effort. The IRS also
                                   informed us that it performed manual calculations to test the
                                   accuracy of the new case selection model used in the
                                   Income portion of the Test. However, it was also unable to
                                   provide documentation to support this effort.
                                   Despite the IRS’ efforts to validate the various Test
                                   samples, it later found an error in the process it used to
                                   identify the Filing Status sampling population. The IRS did,
                                   however, identify this problem early enough to be able to
                                   reselect the individual samples so the reliability of the
                                   samples was not affected.
                                   The data being gathered by the IRS during the Test should
Data Collected During the Test
                                   enable it to make well-informed decisions regarding the
Should Provide the Information
                                   future of the EITC Program. The IRS has developed a plan
Needed to Evaluate the Test
                                   to collect data that will be used to evaluate the results of the
Results
                                   Test. The purpose for collecting these data is to provide the
                                   IRS with the information necessary to answer three key
                                   questions.
                                   •   Does certifying the residency requirement for
                                       EITC-qualifying children reduce erroneous EITC claims
                                       without harming participation in the EITC Program?
                                   •   Does verifying the filing status reduce erroneous EITC
                                       claims by married taxpayers incorrectly using the
                                       “Single” or “Head of Household” filing status without
                                       harming participation in the EITC Program?
                                   •   Does selecting EITC income verification program cases
                                       based on potential change in the EITC result in cases
                                       that are as productive as those selected through other
                                       income verification program methods?

                                                                                            Page 9
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                    The IRS plans to collect data that will provide the
                    information necessary to enable it to answer these key
                    questions. In addition to collecting the data, the IRS plans
                    to validate the data through its quality review process. This
                    process should help ensure that the data are input into the
                    various tracking systems correctly and that the data are
                    reasonable.




                                                                          Page 10
                          The Statistical Sampling Method Used in the
                 Earned Income Tax Credit Proof of Concept Test Appears Valid

                                                                                                  Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the usefulness of the Earned Income Tax
Credit (EITC) Proof of Concept Test (the Test) in enabling the Internal Revenue Service (IRS) to
make decisions regarding the future of its EITC Program. To accomplish our objective, we:
I.      Determined whether the Test samples were statistically valid and would provide reliable
        results to determine the success of the Test. We obtained the sampling methodology
        documents for the Certification of Qualifying Child Residency Requirements
        (Certification) and Verification of Filing Status (Filing Status) samples and the case
        selection documents for the Verification of Income portion of the Test. We also
        interviewed IRS personnel.
        A.       Determined whether the samples were implemented as designed and whether the
                 case selection methodology for the EITC income verification program matched
                 the intent of the Test. We also determined the validation steps taken by the IRS to
                 ensure the Test included the taxpayers intended.
        B.       Reviewed the IRS’ independent third party evaluation1 of the Certification portion
                 of the Test. We requested the opinion of the Treasury Inspector General for Tax
                 Administration’s contracted statistician on the third party evaluation and the
                 sampling methodology for the Filing Status portion of the Test.
II.     Determined whether the IRS had plans to gather from the Test data elements that would
        provide information useful in making decisions regarding the future of the EITC
        Program.
        A.       Interviewed IRS personnel and reviewed the initiative evaluation plan, the Wage
                 and Investment Division’s Research Prospectus for Qualifying Child, and the
                 independent third party evaluation of the Certification sample to determine the
                 IRS’ plans for evaluating the results of the Certification subsamples. We
                 interviewed IRS personnel and reviewed the above documents to identify the data
                 elements to be used in evaluating the Test and determined the reasons behind
                 selecting those data elements. We also compared the above documents to
                 determine if there were data the IRS should collect that it was not planning to
                 collect.




1
 Mathematica Policy Research, Inc. report, A Review of the Earned Income Tax Credit Residency Certification Pilot
Study, dated November 28, 2003.
                                                                                                        Page 11
                           The Statistical Sampling Method Used in the
                  Earned Income Tax Credit Proof of Concept Test Appears Valid

         B.       Interviewed IRS personnel and reviewed the Audit Information Management
                  System2 Data Dictionary, information available from the Joint Operations Center3
                  Enterprise Telephone Data Dictionary, Automated Underreporter (AUR)4
                  Glossary, and AUR reports to determine whether the data the IRS plans to collect
                  for the Test are already available from current Management Information Systems.
         C.       Interviewed IRS personnel and reviewed the Quality Job Aid for EITC
                  Certification paper cases and AUR paper cases to determine whether the IRS will
                  perform data validations on the data elements captured and on reports to be used
                  for evaluating the Test.




2
  The automated system the IRS uses for Examination workload management.
3
  The Joint Operations Center functions as the enterprise-wide network operations center for all the IRS call sites.
4
  The AUR Program is the IRS’ income verification program.
                                                                                                              Page 12
                       The Statistical Sampling Method Used in the
              Earned Income Tax Credit Proof of Concept Test Appears Valid

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
Karen C. Fulte, Senior Auditor
Kathleen A. Hughes, Senior Auditor
Steven Stephens, Senior Auditor




                                                                                         Page 13
                      The Statistical Sampling Method Used in the
             Earned Income Tax Credit Proof of Concept Test Appears Valid

                                                                             Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Program Evaluation and Risk Analysis RAS:O
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Earned Income Tax Credit, Wage and Investment Division SE:W:EITC
Director, Reporting Compliance, Wage and Investment Division SE:W:CP
Earned Income Tax Credit Program Manager SE:W:EITC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Office of Management Controls OS:CFO:AR:M
Audit Liaison: GAO/TIGTA Liaison, Wage and Investment Division SE:W:S:PA




                                                                                  Page 14
                         The Statistical Sampling Method Used in the
                Earned Income Tax Credit Proof of Concept Test Appears Valid

                                                                                              Appendix IV


                 Prior Treasury Inspector General for Tax Administration
                         and General Accounting Office Reviews
                 of the Earned Income Tax Credit Proof of Concept Test

Prior reviews of the Internal Revenue Service’s (IRS) Earned Income Tax Credit (EITC) Proof
of Concept Test by the Treasury Inspector General for Tax Administration (TIGTA) and General
Accounting Office (GAO) were completed and reports were issued in December and
September 2003, respectively.
Management Controls Over the Proof of Concept Test of Earned Income Tax Credit
Certification Need to Be Improved (Reference Number 2004-40-032, dated December 2003)
The TIGTA reported that, although the IRS accurately identified taxpayers for the Proof of
Concept Test of EITC certification of qualifying children and used an appropriate sampling
approach, management controls needed improvement. Noting that continued change could
jeopardize the usefulness of the Proof of Concept Test of EITC certification, the TIGTA advised
that additional controls should be implemented, such as quantifying goals, establishing measures,
and improving oversight of management information systems.
Earned Income Credit: Qualifying Child Certification Test Appears Justified, but Evaluation
Plan Is Incomplete (GAO-03-794, dated September 2003)
The GAO reported the Qualifying Child Certification Test appeared justified, but the evaluation
plan was incomplete. The report noted that the IRS’ plan for evaluating this test presented some
information on how the IRS would evaluate whether certification would reduce the EITC
overclaim1 rate, minimize burden, and maintain a relatively high participation rate. However, it
did not provide details on when decisions would be made or on the specific data that would be
collected. The GAO recommended the IRS Commissioner accelerate the development of the
plan to evaluate the Certification test and have the plan demonstrate how the program’s
objectives would be evaluated, including milestones for conducting the evaluation.




1
 An EITC overclaim is the amount of the EITC claimed by a taxpayer above the amount to which he or she is
entitled.



                                                                                                      Page 15
                          The Statistical Sampling Method Used in the
                 Earned Income Tax Credit Proof of Concept Test Appears Valid

                                                                                                     Appendix V


    Income Verification Program Earned Income Tax Credit Inventory Categories

The Internal Revenue Service (IRS) created new Earned Income Tax Credit (EITC) inventory
categories for its income verification program to test the new case selection methodology for the
Proof of Concept Test. The new categories and their criteria are as follows:
Repeater Freeze Criteria1
    •    Taxpayer’s returns were worked by the IRS’ income verification program 2 years in a
         row.
    •    The IRS made an assessment 2 years in a row.
    •    Taxpayer’s return was in the same Income Category.
    •    Taxpayer now appears in the income verification program inventory for the third year in
         a row for the same Income Category.
Repeater Non-Freeze Criteria
    •    Taxpayer’s return had to be worked by the IRS’ income verification program at least
         once during the last 3 years.
    •    Return does not meet the Repeater Freeze criteria.
Repeater Non-Worked Criteria
    •    Taxpayer’s return showed up at least once in the income verification program inventory
         during the last 3 years.
    •    Return was not worked as a case.
Other
    •    Return does not meet Repeater Freeze criteria.
    •    Return does not meet Repeater Non-Freeze criteria.
    •    Return does not meet Repeater Non-Worked criteria.




1
 This indicates the taxpayer was selected for review as part of the IRS’ income verification program in the past.
The IRS’ future vision is to suspend, or freeze, the current year EITC payment until the prior year income
verification process has been completed.
                                                                                                            Page 16
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid

                                                           Appendix VI


      Management’s Response to the Draft Report




                                                                Page 17
         The Statistical Sampling Method Used in the
Earned Income Tax Credit Proof of Concept Test Appears Valid




                                                               Page 18
